<html>
<title> - ENGAGING THE ELECTORATE: STRATEGIES FOR EXPANDING ACCESS TO DEMOCRACY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 ENGAGING THE ELECTORATE: STRATEGIES FOR EXPANDING ACCESS TO DEMOCRACY

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 23, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
52-710                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






  ENGAGING THE ELECTORATE: STRATEGIES FOR EXPANDING ACCESS TO DEMOCRACY

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                 HELD IN WASHINGTON, DC, JULY 23, 2009

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html











                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                           professional Staff
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
 ENGAGING THE ELECTORATE: STRATEGIES FOR EXPANDING ACCESS TO DEMOCRACY

                              ----------                              


                        THURSDAY, JULY 23, 2009

                  House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Capuano, Davis of 
California, Davis of Alabama, Lungren, and McCarthy.
    Staff Present: Jamie Fleet, Staff Director; Tom Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Joe Wallace, Legislative 
Clerk; Daniel Favarulo, Legislative Assistant, Election; Victor 
Arnold-Bik, Minority Staff Director; Peter Schalestock, 
Minority Counsel; Karin Moore, Minority Legislative Counsel; 
and Salley Collins, Minority Press Secretary.
    The Chairman. Good morning, everyone. And I would like to 
call the hearing of the Committee on House Administration to 
order. In all our rushing around, our staff forgot to give me a 
gavel, so I will improvise and use a water bottle.
    Wait a minute. We found the gavel. Now, if I don't mix them 
up and drink the gavel and bang the water, I will be okay.
    I call our meeting to order.
    I would like to welcome members of the committee, 
witnesses, and guests.
    And before I begin, I would like to take a minute to 
acknowledge a member of our staff who will be leaving us soon, 
Kristin McCowan, who has worked at the committee for about 3 
years and is constantly on my back, right back here, with the 
voice that keeps me right. We will miss that tremendously. As 
the chief clerk, she has kept affairs of the committee 
organized and focused.
    And in the fall, she begins coursework at the University of 
Southern California. Kristin has served this committee and the 
Congress with distinction, and I will miss her for sure. So 
please join me in a round of applause and wishing her well.
    Also in the audience is her mom and dad, Mr. and Mrs. 
McCowan. I would like for you to stand up, and let you know how 
proud we are of your daughter. And we are going to miss her 
tremendously.
    She promises me she will come back on my back, on my 
shoulder here, from time to time and whisper in my ear a few 
times. And I do appreciate that. We got very close, as you can 
see by this wall, over the last couple of years.
    Today's hearing will focus on innovative voter outreach 
strategies, how these strategies can help ensure our right to 
vote. In the 2008 election, new voters were engaged like never 
before. In part, this engagement was due to groundbreaking 
technology that allowed more and more diverse voters to become 
active participants in the political process.
    Grassroots organizations, political parties, and election 
officials used the Internet to educate voters about 
registration rules and deadlines. Social networking sites like 
Facebook launched registration drives that signed up tens of 
thousands of new voters. Search engines like Google provided 
voters with polling place locations. And various political 
blogs provided new forums for voters to express their opinions 
and enthusiasm for a particular candidate or issues. These 
tools were not even available 4 years ago.
    This technology was used to engage voters straight through 
Election Day. Over the course of the day, text messaging was 
used to inform voters of their polling places and to encourage 
them to vote. And as polling stations closed, e-mail networks 
quickly spread news about the results to people around the 
United States and the world.
    As electrifying as the 2008 election was, it is important 
to note that the election was not without problems. We must 
ensure that voters can get to the polls, get on the rolls, and 
cast their votes without unnecessary impediments.
    Last Congress, we heard testimony about important 
information voter hotlines were collecting. Throughout the 
election year, the MYVOTE1 and the GO-CNN-08 hotlines worked 
with media outlets such as NBC, CNN, and the Tom Joyner Morning 
Show and collected nearly 300,000 phone calls from voters 
across the country who encountered voting problems.
    Now, a coalition of civil rights organizations--the 
Advancement Project, the NAACP National Voter Fund, and Voter 
Action--has analyzed the data and are releasing today a report 
of their findings and recommendations.
    We also welcome the Hip Hop Caucus and Smart Girl Politics, 
who will share with us their thoughts on outreach to new voters 
and ways to keep these voters engaged.
    Hearing from voters about the problems they face and 
discussing solutions to those problems is important to me and 
the members of this committee, and we look forward to all your 
testimony.
    I would now like to proceed with opening statements of the 
ranking member, Mr. Lungren from California, who will have an 
opening statement.
    [The statement of the Chairman follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lungren. Thank you very much, Mr. Chairman.
    I join in the accolades that you have given our chief clerk 
here, and I wish her well in California. My only regret is that 
she decided to go to USC. She could have stopped halfway across 
the country at Notre Dame, but she told me it was too cold.
    I would like to thank you, Mr. Chairman, for graciously 
allowing the inclusion of two witnesses for the minority's 
point of view on this panel.
    And before we hear the testimony of our witnesses today, I 
would like to address a fundamental aspect of the concern of 
engaging the electorate. It seems to me that an engaged 
electorate must necessarily originate from a set of compelling 
candidates and policy offerings, not Federal mandates.
    Certainly, legislative relief may enable an electorate to 
more easily access the voting process. However, it should not 
be the responsibility of, nor do I believe it can be 
accomplished by, legislation to enthuse the electorate.
    It seems that our recent history demonstrates that the 
motivation behind a mobilized electorate is not the ground 
rules set by this or any legislative body, but rather the 
discussion and clash of ideas, the quality of the candidates, 
the impacts of their potential leadership that drives the less 
active voter to the polling station. I don't think that a 
single member of this committee would contend that the strong 
increases in turnout among minority and youth voting groups 
originated from any legislative action.
    In fact, this committee and its Elections Subcommittee have 
dedicated several hearings to investigating challenges to voter 
turnout and the effective submission of ballots, particularly, 
I would mention, with respect to the military. If there is a 
compelling need to act on the Federal level, it is to ensure 
that those men and women in uniform around the world today who 
are serving this Nation not only have a chance to register, not 
only have a chance to vote, but to have those votes counted.
    We heard testimony in previous hearings that a small 
percentage of those who actually cast their votes had those 
votes counted this last time around. That is the ultimate 
tragedy, it seems to me. And I hope that the Senate will act on 
legislation similar to that which this committee passed.
    Despite the challenges, as I mentioned, that we witnessed, 
an increase in participation by nearly 5 million voters is what 
we saw. The Census Bureau concluded that the voting population 
included about 2 million more black voters, 2 million more 
Hispanic voters, and about 600,000 more Asian voters.
    That discrepancy between the challenges that we identified 
in the process and the marked increase in traditionally 
underperforming voting groups cannot be explained by the sudden 
effectiveness of prior legislation. There must have been 
greater motivating factors. And I contend that those were the 
candidates and the issues.
    Testimony received by this committee and Subcommittee on 
Elections in past hearings explained that the vast majority of 
calls to various hotlines are from voters seeking information 
regarding the location of polling stations or registration 
status. This does speak to the fact that the electorate is 
motivated by the substance of elections as opposed to the 
process itself. It also demonstrates that voter education, not 
additional legislation, in my judgment, will be most successful 
in assisting voter access in the voting process.
    In election proceedings, the government's responsibility is 
to ensure that the process is administered transparently and 
impartially. Voting citizens, who by virtue of their active 
decision to vote demonstrate that they are personally engaged, 
need a system in which they can trust the legitimacy of its 
outcomes. To that end, we must work toward better educating the 
electorate and providing States with the flexibility to 
implement necessary safeguards that help increase voter 
confidence in the electoral system.
    Further recognizing the seminal importance of maintaining 
the integrity of our elections procedures and outcomes, I hope 
that we wouldn't impose mandates intended to open up the 
process at the cost of compromising protections against fraud 
and manipulation. We need to encourage everyone who is eligible 
to vote to vote, but we also need to protect those votes by 
ensuring that those who are not eligible to vote don't cast 
ballots and have them counted.
    So, Mr. Chairman, I thank you for this hearing. I look 
forward to the testimony of our panel of witnesses, and thank 
all of them for their contribution to our ongoing discussion.
    The Chairman. I thank you.
    Mr. Capuano.
    Mr. Capuano. Just here to listen.
    The Chairman. Just here to listen. Well, that certainly is 
not true. I am sure we will hear from you.
    I want to thank our panel of witnesses today and introduce 
them.
    Tom Joyner--Mr. Joyner is the host of a popular, nationally 
syndicated morning radio show, the ``Tom Joyner Morning Show.'' 
His program features well-known celebrities, newsmakers, and 
national leaders. Mr. Joyner is also a strong advocate of civil 
rights and has led voter registration and get-out-the-vote 
activities.
    I want to welcome Mr. Joyner back to the committee, and I 
look forward to your thoughts on the hotline and how your 
listeners experienced the 2008 election. I also, again, would 
personally like to thank you for spending time and taking time 
out of your busy schedule. I have followed you a little bit. 
You cover more States in 1 day than I have covered in my 
lifetime, a lot of us cover in our lifetime. And I do 
appreciate you taking the time out of your busy schedule to 
come back and testify in front of us.
    Reverend Lennox Yearwood--Reverend Yearwood currently 
serves as president of the Hip Hop Caucus, which is a national 
organization that organizes young people in urban communities 
to be active in elections, policymaking, and service projects.
    Prior to his work with the Hip Hop Caucus, the Reverend was 
co-creator of the ``Vote or Die''--I have one of your T-shirts, 
by the way--``Vote or Die'' campaign, as well as the executive 
director of Hip Hop Voices, a program of voices for working 
families at the AFL-CIO.
    Thank you, Reverend Yearwood, for coming today, and we look 
forward to your testimony.
    Elizabeth Westfall--Ms. Westfall is director of the Voter 
Project Program at the Advancement Project, a national civil 
rights organization, where she manages the litigation and 
advocacy activities of the program's staff attorneys.
    Ms. Westfall will be discussing their report analyzing the 
voter hotline data, and I look forward to your recommendations.
    Cameron Quinn--Ms. Quinn is the former secretary of 
Virginia's Board of Elections, where she oversaw statewide 
election administration and voter registration policies. Ms. 
Quinn has also served as special counsel on voting matters for 
the Civil Rights Division at the Department of Justice, an 
advisor to the 2005 Federal Commission on Election Reform, and 
election advisor for IFES, formerly known as the International 
Foundation for Election Systems.
    I would like to welcome you, Ms. Quinn.
    And Ms. Rebecca Wales--Ms. Wales currently serves as 
director of communications for the conservative women's 
organization Smart Girl Politics. Prior to her work with Smart 
Girl Politics, Ms. Wales served as deputy national youth 
director for McCain-Palin 2008, where she was responsible for 
the national grassroots field strategy for the youth 
demographics.
    Thank you again for joining us.
    And I understand that we do have an audio that we would 
like to listen to before we ask Mr. Joyner to testify.
    [Begin audiotape.]
    Caller. --polling place in St. Louis, Missouri, in north 
county, voters who have been waiting since 10:00 this morning 
have not been able to vote. There is inadequate equipment. It 
is very, very poorly organized. And, as a result of that, many 
voters have left.
    Caller. My issue of complaint is in Philadelphia, 
Pennsylvania, Ward 59, Division 4. Only one of two machines 
working this morning at 7:00 a.m. when the polls opened, 
although there were already more than 200 people standing in 
line.
    Caller. My name is Robert. I am calling from Pensacola, 
Florida. I have been in the Army for several years, and I now 
live in Pensacola. And in order to vote here, I have to have a 
Florida ID. So I went to get a Florida ID, and all of a sudden 
on the 1st of October they have changed the rules. I have to 
have a birth certificate, which means I have to go back to my 
State and get a birth certificate, come back to Florida to get 
an ID, just to vote. And there won't be enough time to do that 
between now and when the votes actually take place.
    Caller. I am a student at the University of Miami, and I 
just finished voting in voting precinct 561. People were turned 
away. People were leaving lines. There were three lines 
attempting to funnel through the door. They were unable to 
locate my name, even though I presented my voter registration 
card and my ID. It is the biggest disaster that I have ever 
seen.
    Caller. I had trouble at the voting booth this morning. I 
put the access card in. It beeped. It did not advance. And I 
pushed it in a little further again, and then it said I voted, 
and I did not. I never saw the screen advance. And I approached 
the woman, the voting person there, and they said, ``Well, 
sorry, you already voted.'' Well, I don't know who I voted for, 
so that was my problem.
    Caller. I am calling from Chesapeake, Virginia, in the 
Crestwood area. We are having problems at that location, 
Crestwood Middle School. We have thousands of people in line. 
They only have six voting machines, and they are all down.
    Caller. I am in Douglasville, Pennsylvania. The problem I 
am having at the polling station was we were voting, and I 
don't know if there was something wrong with the polling 
machine, but the polling machine was voting double or triple 
for whatever candidate you chose.
    Caller. On Saturday, my husband and I tried to vote in 
Orange County, Florida, and were told that we were purged from 
the system. When I renewed our driver's licenses at the 
Division of Motor Vehicles, we were asked if we also wanted to 
change our voter registration address. We agreed to do that. 
However, we were told by the Supervisor of Elections at the 
polls that 90 percent of the changes made at the DMV are never 
passed on to the Supervisor of Elections.
    [End audiotape.]
    The Chairman.  Thank you.
    Without objection, your written statements will be made 
part of the record in its entirety. And we ask that you 
summarize your testimony in 5 minutes.
    Mr. Joyner, you are the lead-off hitter.

STATEMENTS OF THOMAS JOYNER, HOST, ``TOM JOYNER MORNING SHOW''; 
   REV. LENNOX YEARWOOD, PRESIDENT AND CEO, HIP HOP CAUCUS; 
   ELIZABETH WESTFALL, SENIOR ATTORNEY, ADVANCEMENT PROJECT; 
     CAMERON P. QUINN, FORMER SECRETARY, VIRGINIA BOARD OF 
  ELECTIONS; REBECCA WALES, DIRECTOR OF COMMUNICATIONS, SMART 
                         GIRL POLITICS

                   STATEMENT OF THOMAS JOYNER

    Mr. Joyner.  Thank you. Good morning, Chairman Brady, 
members of the committee. Thank you for inviting me to testify 
before the panel today. I am Tom Joyner, host of the nationally 
syndicated ``Tom Joyner Morning Show.''
    The Chairman.  Excuse me, sir. Push that button. I know you 
are not afraid of a live mic.
    Mr. Joyner.  Oh.
    I am Tom Joyner, host of the nationally syndicated ``Tom 
Joyner Morning Show.'' Our show is aired in 115 markets, 
reaching nearly 8 million African Americans. That works out to 
be about one in four of every African American in this country. 
We have a very simple philosophy on the show: It is a party 
with a purpose. We play good music, we laugh a lot, and we take 
on a lot of serious issues.
    Since I testified before this committee some 18 months ago, 
a lot has happened. We made history, electing the Nation's 
first African American President. Like so many Americans, I 
cried on election night in Chicago. But I am here today to make 
sure we do an even better job at all of our elections, 
especially in 2012.
    First, let me tell you how the 1-866-MYVOTE1 hotline made a 
difference last year. We received more than 300,000 calls, we 
helped more than 150,000 listeners to find their poll 
locations, and we registered more than 100,000 new voters. We 
were able to make this happen thanks to my partners in the 
hotline, the International Brotherhood of Teamsters and the 
NAACP National Voter Fund.
    In addition to helping people, we also captured important 
information that was used to determine whether some of our 
listeners could vote. In Pennsylvania, the MYVOTE1 hotline data 
provided the foundation for the NAACP's legal action that led 
to a Pennsylvania court requiring poll locations to have enough 
emergency ballots on hand if machines failed. In Virginia, 
callers warned of a traffic accident that blocked access to a 
poll location and gave alternative routes. In Florida, callers 
warned of bogus e-mails attempting to suppress African American 
votes. In Missouri, callers warned voters of last-minute 
changes in poll locations.
    There are other examples, but we don't have time today to 
review all of them. The success of the MYVOTE1 hotline tells me 
that it is a unique and critical tool in assessing what 
succeeds and what fails on Election Day.
    I want to make sure your committee addresses these problems 
now and removes all barriers to make sure all Americans can 
exercise their vote. As a Nation, we have to do a better job. 
My listeners demand it, and so do all Americans.
    There are four key areas that I want you all to fix to 
avoid some of the confusion, frustration, and drama we faced 
during last year's presidential primaries and during the 
general election.
    My first point is that we need to eliminate all voter ID 
requirements. We received hundreds of phone calls on the 
hotline during the primaries from Georgia about voters standing 
in long lines because of the ID requirements. In the Atlanta 
area, for example, callers complained about waiting in one line 
for their IDs to be checked, then waiting in a long line to 
vote. These listeners said that they waited for hours in some 
locations because there weren't enough machines.
    What I am worried about is that several State legislatures 
around the country, including my home State of Texas, have been 
trying to push through requirements forcing registered voters 
to have government-issued IDs to vote. This makes it hard on 
potentially millions of Americans who are citizens who may be 
unemployed, who don't have a driver's license or any form of 
government identification.
    Second, we need to provide better training for all precinct 
workers. What we learned from our calls on the hotline is that, 
quite often, precinct workers didn't know how to resolve 
problems when they occurred. Based on our hotline, we had 
dozens of issues involving broken machines, the lack of 
ballots, or simply not enough workers on hand. We should make 
every effort to make sure that these workers are properly 
trained, fully aware of all the issues, and even consider 
reaching out to younger adults to help with the elections, 
which I can help you do.
    My third point is that we need to make more voting machines 
available. Another huge problem was the lack of machines in 
areas where there were huge concentrations of black listeners. 
We have thousands of calls from listeners who say that they 
waited hours in line only to find out that there were not 
enough machines available to handle the large crowds.
    I am just a DJ, but it seems to me that, given the historic 
nature of this election, an African American candidate, why 
wouldn't you make more voting machines available? It seems to 
me you make sure that you have as many machines possible to 
guarantee we exercise our right to vote.
    And my final point today is that we need to create a 
national standard for voting machines. What made the problem 
worse is that many voting precincts have different types of 
voting machines. You can have paper ballots in one location and 
electronic machines in another and the old-fashioned lever 
machines someplace else.
    Why can't we have one type of machine everywhere? Again, I 
am just a DJ, but if we had the same type of voting machines 
everywhere, wouldn't that make it easier for us to tabulate the 
votes on election night?
    I am glad to hear about the legislation that is currently 
working its way through Congress. It is the ``Voter Confidence 
and Increased Accessibility Act.'' The bill would establish a 
national standard for voting, requiring all voting precincts to 
use paper ballots, and require random audits of any electronic 
election systems.
    Why paper ballots during this electronic age? Well, what we 
have learned is that electronic voting machines are unreliable 
and unstable. We truly need a paper trail and a way to easily 
audit the elections. We know every vote must count.
    Mr. Chairman, I love this country, and I know we can do 
better when it comes to our voting process. That is why I am 
here and why I am going to continue to fight to ensure that my 
listeners and certainly every American can vote freely and 
without barriers. That is what this country is all about. We 
have to do everything to protect this very basic right as 
Americans, the right to vote.
    Thank you very much. This is Tom Joyner. Thank you again.
    [The statement of Mr. Joyner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you.
    Reverend Yearwood.

                  STATEMENT OF LENNOX YEARWOOD

    Reverend Yearwood. Chairman Brady, Ranking Member Lungren, 
and members of the committee, thank you for inviting me to 
testify today. On behalf of the Hip Hop Caucus, I am pleased to 
present testimony on ``Engaging the Electorate: Strategies for 
Expanding Access to Democracy.''
    The Hip Hop Caucus is a national nonpartisan and nonprofit 
organization that was founded on September 11th, 2004, in the 
midst of the 2004 presidential elections. The mission of the 
Hip Hop Caucus is to work towards ending urban poverty for the 
next generation by organizing young people in urban communities 
to be active in elections, policymaking, and community service. 
Over a 4\1/2\ year period, we have built a national membership 
of up to 660,000 people, 71 percent of them who are under the 
age of 40 years old and 60 percent of whom are women.
    In 2004, I helped create the ``Vote or Die'' campaign with 
Sean P. Diddy Combs, and I was the grassroots and political 
director for Russell Simmons.
    But it was prior to these get-out-the-vote campaigns, when 
I was working as a minister in poor, urban communities, that I 
recognized that poor people, in particular, did not think that 
they were a part of this system. They thought that the system 
was against them. Their outlook on government had a profound 
impact on their personal lives.
    Once they understood the simple fact that government works 
for them and was not set up to antagonize them, literally their 
outlook changed on everything from educational opportunities, 
health, economic opportunities, the environment, criminal 
justice, parenting, and obviously being simply engaged.
    Being involved in democracy helps people control their own 
destinies. Our voting system, however, is not set up to engage 
communities of color and poor communities in our democracy. In 
fact, our system is set up to discourage these voters, and so 
our government is often not functioning as a representative 
democracy for these communities. It is instead functioning as a 
damage control mechanism.
    As I will explain in this testimony, we have used culture, 
media, and technology to engage traditionally disenfranchised 
communities in elections. And I will expound on some of these 
strategies.
    However, the message that I really want to convey is that 
campaigns that I have created, like ``Vote or Die'' and 
``Respect My Vote,'' are not the solution. They are creative 
attempts to fill an institutional void that our confusing and 
overly burdensome voter registration system has created. I will 
continue my calling to engage new voters in our democracy. 
However, I am looking to you to make the system more 
transparent and inclusive for all American citizens.
    In 2008, the Hip Hop Caucus designed a voting campaign that 
targeted young voters in urban communities who did not have 
college experience. And it should be noted, the rates between 
young people with college experience and young people without 
college experience are very, very different. Meanwhile, most 
youth-oriented voter engagement campaigns are targeted at 
college campuses.
    I just really want to give a few examples. I am so glad to 
be sitting next to my good friend Tom Joyner. For example, on 
September 30, 2008, we partnered with Radio One on an 
initiative called ``One Vote Day.'' Radio One has urban 
stations in 16 markets around the country. Through the radio, 
we publicized a day of mass voter registration where, in 16 
cities, people could come to community locations on that day 
and register to vote. In a 12-hour period, the Hip Hop Caucus, 
along with Radio One, registered 32,000 voters.
    And another example is how we used our spokesperson, T.I. 
T.I. Was an individual who was a major, A-list artist. T.I. 
Also has a felony record. He is from the State of Georgia. And 
when we asked him to be our spokesperson, we all thought that, 
as someone with a felony record, he could not vote. Regardless, 
he was prepared to motivate and challenge his fans to vote even 
though he could not. It turned out what we learned is, in the 
State of Georgia, if you are not currently serving a sentence, 
you can vote. And on October 29th, 2008, then 28-year-old T.I., 
Clifford Harris, voted early and for the first time in the 
State of Georgia.
    I bring this up to address two points. First, T.I., who has 
made mistakes in his life, has and deserves the credibility and 
respect of some of the most historically oppressed communities 
in this country. While many frowned on his role in the 2008 
elections, the fact of the matter is that he inspired and 
reached a population who traditional organizations and leaders 
simply cannot reach.
    And, second, voting laws for ex-offenders vary State by 
State, and they are the only set of Jim Crow laws that continue 
to expand. And most ex-offenders are completely unaware of the 
voting rights that they do have.
    Let me conclude by saying this. There are two things, as I 
conclude: One, I would just say the Hip Hop Caucus has worked 
on a new piece of legislation with Congressman Cummings called 
the ``Constitution and Citizenship Day Act,'' which would 
provide for public and charter schools to register eligible 
high school students to vote on Constitution Day, which is 
September 17th. The voter registration activity will be coupled 
with a rally, assembly, or whatever. But the idea behind the 
legislation is to reach young voters before they graduate high 
school.
    And, finally, let me just say the United States is one of 
the few democracies that places the burden of registration on 
the voter. And because of this, voter turnout in the United 
States is near the bottom of the developed world. We must do 
better. We must work towards comprehensive solutions. And, as 
you all know very well as Members of Congress, elections are 
not games, they are not contests. Elections are for citizens 
first, and they point to our access to democracy and are as 
serious as life and death.
    Thank you for the opportunity to present to you today.
    [The statement of Reverend Yearwood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Reverend.
    Ms. Westfall.

                STATEMENT OF ELIZABETH WESTFALL

    Ms. Westfall. Thank you, Chairman Brady and members of the 
committee. My name is Elizabeth Westfall. I testify today in my 
capacity as the director of the Voter Protection Program at 
Advancement Project, a national civil rights organization in 
Washington, D.C. Thank you very much for your invitation to 
testify today.
    After the 2008 general election, Advancement Project, the 
NAACP National Voter Fund, and Voter Action prepared a report, 
released today, entitled, ``Uncovering Flaws in Election 
Administration: A Joint Report on the 2008 Election Based on 
CNN and MYVOTE1 Voter Hotline Data.''
    I would like to recognize my co-authors, John Bonifaz of 
Voter Action and Greg Moore of the NAACP National Voter Fund, 
who join me at this hearing.
    The joint report highlights illustrative calls received by 
the MYVOTE1 and CNN voter hotlines from voters in Florida, 
Georgia, Missouri, Ohio, Pennsylvania, and Virginia, and 
recommends Federal reforms to protect voters in the 2010 and 
future Federal elections.
    My remarks today will focus on several short-term 
recommendations set forth in the joint report. My written 
testimony also discusses long-term recommendations for deeper 
congressional review. I refer the committee to my written 
testimony, as to those recommendations.
    The committee has asked panelists to suggest how to expand 
access to democracy. Looking at the 2008 election from a bird's 
eye view, it is clear that voter registration and 
administrative barriers to voting played a significant role in 
restricting access to the franchise.
    According to Professor Stephen Ansolabehere of MIT, 2 
million to 3 million eligible voters were prevented from voting 
and an additional 2 million to 4 million were discouraged from 
voting due to registration or other authentication problems. He 
concluded that the magnitude of these barriers has remained 
unchanged since the 2000 election.
    The voices of voters heard in the joint report released 
today give testimony to the urgent need for reforms. Scores of 
hotline callers reported that they were registered or had 
attempted to register, yet, on Election Day, learned that they 
were not in the poll books. Circumstances varied. Some reported 
that they had registered through the Department of Motor 
Vehicles; others, that they had voted in recent elections; 
still others, that they had submitted an application to an 
election official, but were nevertheless left off the rolls.
    Barriers to voter registration, administrative error, and 
list maintenance procedures likely contributed to these 
outcomes. To address these problems, Advancement Project urges 
Congress to enact swiftly several amendments to the ``Help 
America Vote Act'' and the ``National Voter Registration Act.''
    First, HAVA should be amended to afford eligible voters who 
affirm that they are registered yet whose names do not appear 
on the rolls, a meaningful Election Day safeguard. If such 
voters affirm their identity, residence, and that they timely 
submitted a registration application before the deadline, they 
should be issued a ballot that will be counted on Election Day.
    Second, HAVA and the NVRA should be clarified to provide 
that neither successful database matching of an applicant's 
information with a record in the DMV or Social Security 
database, nor documentary proof of citizenship are requirements 
to register for Federal elections.
    Finally, the NVRA should be amended to prohibit the purging 
of voters from the rolls whose original voter registration 
acknowledgment card is returned in the mail.
    The hotline calls also indicate significant poll worker 
confusion in determining the appropriate circumstances in which 
to issue provisional ballots. Advancement Project's examination 
of provisional ballot use in the 2006 general election also 
unearthed troubling poll worker error and training issues, 
including failures to direct voters to the correct precinct or, 
worse yet, affirmatively directing voters to the wrong 
precinct.
    To reduce the use and rejection of provisional ballots, 
Advancement Project urges Congress to amend HAVA to require 
provisional ballots cast by the voters in the wrong precinct to 
be counted for all Federal election contests in which the 
voters are eligible, and also to guarantee that voters who have 
moved intrastate be permitted to update their address on 
Election Day and, if they appear in their correct new precinct, 
to vote with a regular ballot.
    Finally, the hotline callers reported long voter lines due 
to machine failures, insufficient voting equipment, 
dysfunctional polling place operations, and inadequate numbers 
of poll workers. Callers also noted an uneven use of backup 
paper ballots to reduce ensuing long lines and inadequate 
supplies of such ballots.
    To alleviate these long voter lines that discourage or 
dissuade voters from participating, Advancement Project 
recommends that Congress enact legislation to require 
jurisdictions that employ DRE, or electronic voting systems, to 
stock backup paper ballots and to require the use of such 
ballots when half the voting machines are inoperable or voter 
lines meet or exceed 45 minutes.
    Again, on behalf of Advancement Project, I thank the 
committee for the opportunity to testify about issues of 
importance to voters. Thank you.
    [The statement of Ms. Westfall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you.
    Ms. Quinn.

                 STATEMENT OF CAMERON P. QUINN

    Ms. Quinn. Mr. Chairman and members of the committee, thank 
you very much for this opportunity to appear before you today 
to talk about innovative voter strategies.
    I am focused on the role of election officials, having 
served as an election official, and having served in the 
capacity of trying to litigate against election officials who 
were not complying with Federal law.
    And I want to note that election officials want to do a 
good job. I have not met election officials that did not 
sincerely want to do the right thing and to follow the law. The 
challenge for election officials is that they are trying to 
operate in a situation involving partisanship and usually with 
very insufficient resources to do the jobs they are being asked 
to do. And I think it is important to keep that in mind as we 
try and think about solutions.
    One of the biggest challenges in the last 8 years is the 
fact that election officials have been trying to comply with 
significant change, again, with insufficient resources. 
Congress did, for the first time ever, put into place 
tremendous resources from the Federal fisc for the first time. 
But those resources were completely inadequate for the changes 
that were actually being mandated. The estimate is that it was 
probably about three times, four times as much as what was 
provided by Congress that it cost these election officials to 
make the changes necessary.
    So keeping in mind, change is challenging always, and 
change is more challenging with insufficient resources, I would 
urge you to remember that as you move forward with any thoughts 
as to what else needs to be done.
    I want to talk mostly about the kinds of things that we 
were doing when I was at the Virginia State Board of Elections. 
Keep in mind, as I have now been out for over 5 years, 
technology was not at the same place. There is some really 
interesting new technology. I would love to be an election 
official again and have the chance to try and use some of the 
new technology to really reach voters.
    But while I was there, because Virginia had a statewide 
database already in place, we were able to do things like a 
universal polling place lookup online. And it was available not 
just to voters, but to people trying to assist voters. We know 
that people were using that once we put it in place, and it 
really did help us reduce the number of calls coming into 
elections offices so that we could more effectively handle 
problems that were coming in on Election Day.
    In addition, we were doing things securely. And I know 
Virginia was the first in the nation trying to do secure voter 
registration confirmation for voters. They could go through DMV 
and get a PIN and then be able, online, to make sure the 
information was correct. And be able to then, if it was 
incorrect, to make changes to it. Those kinds of technologies 
are so much more accessible now. And with the HAVA requirement 
for statewide database, the States are now getting in positions 
where they can be looking at trying to do these things, and 
there is some real opportunity there.
    In addition, things like ballot tracking for absentee 
ballots can make a huge difference. If people are overseas and 
they can not easily make a phone call because they are 12 hours 
on the other side of the world, they are able to see if the 
ballot request has been received, if the ballot has been 
mailed, and if the ballot has been received back by the 
elections office.
    And e-ballots are one of those things that can make a huge 
difference in the transmission time, for example, in-theater 
operations for the military in Iraq and Afghanistan. The 
military postal service is now finding round-trip takes up to 
60 days. And yet, at best, elections offices typically are 
providing 45 days for transmission of the ballot to the voter 
and transmission back.
    So the more we can do to electronically transmit ballots 
securely, while making sure that the receipt of the ballot back 
is also secure, the better we are going to be able to provide 
that kind of innovative strategy to allow participation.
    When I was at the State Board of Elections, I felt it was 
important, as Congressman Lungren said, for both transparency 
and integrity. And part of transparency is involving everyone 
collaboratively in trying to come up with solutions for 
problems. We did this effectively in a number of ways, but I 
think the one I was most pleased with was when we did our 
recount and ballot counting provisions, which we did in a 
collaborative, bipartisan way, with a lot of attorneys. Many of 
them had litigated recounts across the State and, in some 
cases, across the country. And then when we had a recount in 
2005, having those in place meant that we did not end up being 
one of the front-page newspaper stories across the Nation.
    There are also specific populations with problems that need 
assistance. While I was there, the Virginia State Board of 
Elections, we were dealing with a lot of the accessibility 
problems for disabled voters. We also tried, as I mentioned, to 
do things for military and overseas voters.
    There are statistics about to come out, in a study coming 
out within the week from the Heritage Foundation, talking about 
the fact that, basically, nationwide, 85 percent of those 
eligible VOCAVA voters do not manage to cast and have a ballot 
counted. The Overseas Vote Foundation has mentioned the fact, 
in their study after the 2008 elections, their survey indicated 
that, 22 percent asked for a ballot and never received it at 
all. And another 11 percent received that ballot within a week 
of the election, or in fact after Election Day, so they clearly 
could not return it in time.
    There clearly are still pockets that do need some 
assistance. And I commend the committee, because I know you all 
have been doing some things to try and help solve some of these 
problems.
    I do want to note that access, as well as integrity, are 
very important to the system. We need both. And they should not 
be seen as mutually exclusive. There are always ways for people 
to work together collaboratively to provide both access and 
integrity. But integrity is an important component. And voter 
confidence is very important to voter turnout and voter 
participation.
    I mentioned in my written testimony the election system in 
Puerto Rico; it is an extraordinary system. The candidates for 
office are treated like rock stars. It really is just the most 
fascinating social phenomenon. They only have the polling 
places open for 7 hours. They have no early voting, they have 
little absentee voting, they have very strict ID requirements, 
and people enthusiastically participate in the system.
    And, in fact, it seems to add to the collective social 
culture there, that everybody is going out and this is what 
they are doing that day, just as if there had been a huge rock 
concert on the island.
    This is important--Mr. Joyner said earlier we can do 
better, and I agree entirely. But we need to be sitting down 
together, trying to figure out how we can do better that we all 
can agree on. And we need to find the resources to make sure 
the elections offices can implement the changes that we ask 
them to implement.
    I encourage you all to not foreclose possibilities for 
States to experiment. We have a Federal system, and it really 
has worked well. We were very pleased with all the things that 
we were able to accomplish in Virginia.
    Mr. Chairman, thank you so much for the opportunity to 
speak today.
    [The statement of Ms. Quinn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you.
    Ms. Wales.

                   STATEMENT OF REBECCA WALES

    Ms. Wales. Good morning, Chairman Brady, Congressman 
Lungren, and members of the Committee for House Administration. 
Thank you for the opportunity to address the committee, to 
share my experiences and insight regarding the previously 
unengaged electorate.
    My name is Rebecca Wales, and I am the national director of 
communications for the conservative women's organization Smart 
Girl Politics. My experiences during the 2008 campaign cycle, 
where I was the deputy national youth director for McCain-Palin 
and also the deputy national coalitions director for the Rudy 
Giuliani Presidential Committee, provides me with a unique 
perspective into where we were and where we need to be, moving 
into the next election cycle.
    Using tools like social media and other forms of 
instantaneous communications, Smart Girl Politics and other 
organizations have successfully tapped into a previously 
unengaged population of voters. The incredible response of the 
Tea Party movement shows that voters are now seeking to become 
more actively engaged with their government. They want to voice 
their discontent with policy or their elected officials now, 
and not wait for the next election.
    We are in a unique political climate, one in which historic 
candidates are broadening the scope of the potential 
electorate. We have seen a revitalized interest in government 
from many demographics, including, as Mr. Joyner and Reverend 
Yearwood have noted, youth voters, minorities, and women.
    Smart Girl Politics was founded by two stay-at-home moms 
who had limited experience in national politics but now have a 
platform to make their voices heard on that level. Our mandate 
is not women-specific. We are merely reaching a targeted 
portion of a much broader audience. In 7 months, we have 
amassed over 15,000 members. This is a group that wants to be 
heard.
    To accomplish this, Smart Girl Politics sponsored a 
nationwide voter registration drive during the Tax Day Tea 
Party rallies. Recognizing that many of the attendees were new 
to activism, our members organized in each city to provide an 
opportunity for Tea Party attendees to register to vote. This 
is the most basic component of political involvement, and we 
aim to inspire those who have never taken the time to cast a 
ballot to take part in upcoming elections.
    The Tea Parties movement was spawned by the rant of a cable 
news correspondent on the floor of the Chicago Commodities 
Exchange this past February. People of all stripes across the 
country were stirred by references to the Boston Tea Party in 
1773. Facing new and previously unheard of spending deficits 
that would affect generations to come, people across America 
began to say we need another Tea Party. Soon, groups were 
popping up throughout the United States.
    The first small rallies were held February 27th, 8 days 
after Santelli's rant, in about 30 cities. Those first 
spontaneous demonstrations motivated a corps of Americans and 
began to build momentum. This momentum led to the April 15th 
Tax Day Tea Party protest. Held in 900 cities, with almost a 
million participants, it was one of the largest grassroots 
protests in a single day in history, even after the Department 
of Homeland Security labeled us ``right-wing extremists.''
    What is the purpose of the Tea Party movement? It is a 
viral grassroots movement propelled by activists, voters, the 
electorate. It is people who are passionate about something 
being driven to give up their time and their resources to talk 
to others about their issues and then engaging those people.
    Many have misunderstood the nature of this movement and 
were under the impression that it was affiliated with the 
Republican Party. There was talk about some overarching 
organization or media outlet sponsoring the events. In fact, 
the events were organized locally and paid for through pass-
the-hat-style donations. There is no umbrella Tea Party 
organization. Every group organizes their own events.
    As the lead organizer for the D.C. Tea Party, where I stood 
in the freezing rain with 3,000 activists, I know firsthand 
that these were done entirely with donations from local 
businesses and money from our own pockets. This is not a highly 
calculated and well-funded campaign, but a true conservative 
grassroots effort that can be done over and over again.
    The success of the Tea Party movement has come largely 
through the use of social media. We have quickly and 
inexpensively been able to reach hundreds of thousands of Tea 
Party activists using Twitter and Facebook, Web sites, and SMS 
text messaging. Most importantly, for use in campaign cycles, 
we have been collecting this information so that we can 
continue to mobilize in the future.
    The Obama campaign leveraged youth presence on the Web to 
increase funds in ways never seen before. Using its massive 
grassroots brand recognition, they successfully outraised the 
Republicans by tens of millions of dollars. Campaigning in 
America has moved from ``We Like Ike'' buttons for our coat 
lapels and bumper stickers for our cars to wikis, widgets, and 
Facebook fan pages.
    With the youth vote having been lost by the Republicans by 
34 percent in the 2008 presidential election, even though 
overall voter turnout was unchanged from the two previous 
election cycles, new techniques must be used to engage this 
demographic in the future. Social media practitioners are 
beginning to understand that they need to reach out to the 
wired voter, a new demographic.
    The Tea Party movement is evidence that reaching out across 
new mediums is working in engaging the electorate early in the 
cycle. The goal now is to make the transfer from online 
momentum to boots-on-the-ground action. Going forward, we need 
to continue to think of new ways to keep them activated and 
have these activists engage new voters.
    Thank you, Chairman Brady and committee members, for the 
opportunity to testify before you today. I would be happy to 
answer any further questions.
    [The statement of Ms. Wales follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you.
    And we will now open it up for questions.
    I would like to ask Mr. Joyner, that this committee has 
taken testimony from some witnesses who believe the stories 
from voters are not reliable, that voters cannot distinguish 
between problems that are real, that are isolated, or, in fact, 
may be their own fault.
    You have received many callers on your show. Could you 
characterize that? How would you respond to that?
    And I understand you talked about the ID issue. We happen 
to agree with you. We are trying to do what we can to make that 
an easier process. Instead of taking so many IDs, maybe one 
valid ID or whatever we could do to speed that process up.
    Voting machines and the amount of voting machines and the 
standard that we use is purely financial. You know, if we 
mandate to a State, then we have to fund it. And right now we 
have a few problems with the finances of our country and of our 
States.
    But you are right, they are the major problems that we 
have.
    But how would you categorize people that come in front of 
us and say that voters are saying there is a problem that 
really don't exist or the problem may be their fault? I am sure 
you have many calls, you know, related toward that.
    Mr. Joyner. That the problems were the voters' fault?
    The Chairman. Well, that the problems may not be real, they 
may just be isolated, or they may be the fault of the voter 
themselves for not going to the proper place, not having their 
proper ID.
    I mean, you do a tremendous amount of advertising. And I 
have listened to you and watched you. And a lot of people are 
paying attention, when they come to the polls they need to 
bring what they need to bring, State by State, whatever they 
need to bring to be able to vote.
    And a lot of people that testify in front of us tell us 
that, you know, that they are making a lot of these things up, 
that they are really not true. And I know through your 
documentation and just through your listeners and people 
responding to you that I believe that they are true.
    Mr. Joyner. And I believe that they are true, too. I mean, 
based on the number of calls that we have gotten. I gave you 
examples of areas where we had a number of calls, where we had 
hundreds of calls, where people were standing in lines for up 
to 4 hours trying to vote. And the holdup was, one, the ID 
requirements; two, not enough machines, and paper ballots when 
the machines failed; and the poll workers not being informed on 
how to deal with issues when there were problems at the polls.
    So these weren't isolated instances that we got. I mean, we 
had over 300,000 calls. And most of those were for poll 
locations. They couldn't find the poll locations; the poll 
locations were changed. But then after that, we got hundreds, 
thousands of calls in certain areas where they were in line--
long, long, long, long lines in order to try to vote because of 
ID requirements, not enough machines, not enough poll workers 
who were informed. They were not isolated.
    The Chairman. I agree with you, and I appreciate it. And I 
thank you for all you do, for taking time to allow people to 
call in and to have a dialogue and to be able to let us know 
what all the problems are State by State. You are not just one 
State. So I appreciate all that you do to bring that visibility 
to us and to the American people. Thank you for that.
    Mr. Joyner.  Thank you.
    The Chairman.  Ms. Westfall, based on your extensive 
experience, do you know of any other national archive of audio 
files contemporaneously recorded by voters during the election 
cycle other than what we have?
    Ms. Westfall.  No, I do not.
    The Chairman.  Do you know of any other database of such 
audio files that is housed on online search engines, such as 
the one that you used to develop this report?
    Ms. Westfall.  None that I am aware of.
    The Chairman.  None at all? Do you believe the EAC should 
use these tools?
    Ms. Westfall.  Certainly. I think they provide a very 
important picture of what voters are experiencing on Election 
Day. And, increasingly, the information about voters' 
experience is being collected in advance of Election Day.
    So I think it is important data, along with academic 
studies, like the one that I mentioned from MIT, the Cal Tech-
MIT Voting Project. If you look at public records and records 
from election officials themselves, voting records, which are 
what Advancement Project seeks after the election, I think when 
you put all these pieces together, they create a very important 
picture of how voters are experiencing voter registration and 
voting on Election Day and during early voting and suggest 
areas for reform.
    So I think the MYVOTE1 hotline is essential, provides 
essential data, and I think the EAC should consider employing a 
similar type of data collection device, yes.
    The Chairman.  I thank you for that.
    Real quickly, just Reverend Yearwood and Ms. Wales, you 
talk about the young voters, who are so near and dear to us. 
How do we keep them? I am sure they had major enthusiasm this 
last presidential election, but what happens is that dissipates 
through other elections. And they may come back again because 
presidential elections naturally have much more visibility and 
advertisement. But we need to keep them.
    Is there anything we need to be doing to keep our new young 
voters enthused and keep them on the rolls and keep them coming 
back and voting instead of going down to a 13, 14 percent 
voting turnout again?
    Ms. Wales.  Well, the Republican Party, we had a problem in 
the first place because we lost them. We lost them long before 
the fiscal crash. We lost them during the war. So we have 
catch-up to do.
    We are having the problem--we have great strides to take at 
the beginning, and we are taking them through social media. We 
get to engage them. We have to empower them. We have to empower 
them to vote. And that is a big thing for us.
    The Republican Party didn't have the money to engage them. 
We had to teach them. And that is what we were trying to do on 
the McCain campaign. We were trying to empower them with the 
message.
    So we are playing a lot of catch-up right now with the 
Republican Party. Keeping them is always a problem, because we 
have 4 long years. We have to show them throughout, both the 
Republicans and the Democrats, to show them that we are doing 
something, that what they are inheriting from their parents is 
something that they want to do.
    I think with what we are going through fiscally, Democrats 
have a long way to go, because what they are seeing is they are 
getting out of college or they are in college and they are not 
seeing jobs. What we need to do is show them that either there 
is something to--they have a reason to vote.
    And I think that is always going to be the problem, is that 
there is a reason to vote. With Republicans, we get to say that 
their reason to vote is to--I am going to use the ``change'' 
word; the Republicans never like to use the word ``change''--
that there is reason to make change. And Democrats get to say 
that we want to keep this going, we want to keep what the 
change is going.
    It is always a struggle. Being the deputy youth director 
for McCain, I saw that firsthand. It is always a struggle to 
keep people moving.
    The Chairman.  How about the ``hope'' word? You don't use 
that either, right?
    Ms. Wales.  I am sorry?
    The Chairman.  You don't use the ``hope'' word either, 
right?
    Ms. Wales.  That is worse than ``change.''
    The Chairman.  Reverend, the hip hops--I am missing hip 
hop. I am too old, my kids are too old, my granddaughters are 
too young. But tell me about the hip hoppers. How do we keep 
them?
    How do we keep them not only around for--I heard somebody 
mention rock stars. I don't know, that doesn't certainly 
qualify for me. I won't speak for the rest of my colleagues. I 
mean, I am from Philadelphia. The only rocks I get is thrown at 
me, not stars.
    But how do you keep our hip hoppers?
    Reverend Yearwood.  I will say this in regards--and I 
definitely appreciate Mrs. Wales's perspective, but I would say 
that, from the generation, the millennium generation, it is 
important to note that that generation that was born between 
1980 and 2000, by the time they all fully come aboard in 2018, 
there will be about 90 million. They will be about 40 percent 
of the electorate.
    And I would just say that one of the most important things 
about that generation is that they, I think, are, to me, one of 
the most powerful generations. I think they see what is 
happening. I don't think it is a question of keeping them 
involved. I think they want to be involved.
    I think that where they are now, the most powerful thing 
about my generation and that generation is that you do have the 
first generation where you have the sons and daughters of 
former slaves working side by side with the sons and daughters 
of former slave owners, and we are literally working together. 
It is not about black or white, but it is black, it is white, 
it is brown, it is yellow, it is red, male, female.
    And I think that generation recognizes now that, 9 years 
into the 21st century, they have to be involved. They have 
critical decisions. Obviously, we are dealing with the economy. 
Obviously, we are dealing with other issues, from the climate. 
And I think that they recognize now that if they don't get 
involved now, 9 years into the 21st century, it will have less 
of an effect later on.
    And so I don't think it is a question of them not getting 
involved. They want to get involved. I think it is what Mr. 
Joyner and others are saying, that we have to make this system 
as accessible and transparent as possible. Nothing to keep them 
away. We moved a long way from poll tax types of elections. We 
are now moving to a whole new type of generation and a whole 
new process.
    The Chairman.  Thank you, sir.
    Mr. Lungren, any questions?
    Mr. Lungren.  Yes. Thank you very much, Mr. Chairman.
    Mr. Joyner and Reverend Yearwood, what can we do to do a 
better job of making sure those young men and women that are in 
uniform today are motivated to vote and that their votes count?
    The figures we have had is a huge number of men and women 
in uniform were unable to vote, and a large number that did 
vote didn't have their votes counted. Do you think that ought 
to be a priority, too?
    Mr. Joyner. Yes, of course I think it ought to be a 
priority.
    Mr. Lungren. Is there anything you can do to help us in 
that regard, getting the word out and so forth?
    Mr. Joyner. Our mission is to inform. And with information 
comes--after we inform with information, you empower. And that 
is what we do every day on the show. We do that with our 
American audience. We are on the Armed Forces Network.
    So the same things that we want for our citizens in the 
United States is the same thing we want for our service men and 
women for the United States.
    Mr. Lungren. It is a bugaboo of mine that we don't seem to 
see that as a priority. I am not saying you don't see it, but 
we, as a Congress, have not. We finally acted here; the 
chairman worked with Mr. McCarthy and others to make sure we 
had something. We passed something. The Senate is now working 
on it.
    I just hope that we can take the message that you presented 
here and firmly plant that with respect to our desire and our 
obligation to make sure men and women in uniform, who are 
serving us all over the world, don't get, you know, last in 
line. They ought to at least be in line; I would even say first 
in line. They are out making the sacrifice.
    And so, I am happy to hear that, because I just don't think 
we are doing what we need to do there. Anything that you could 
do to help us to raise that word, I think we would all 
appreciate.
    Reverend Yearwood. I would add to that, as somebody who was 
a former Air Force officer myself, that I know what it means to 
be in the uniform, stationed right here at Andrews Air Force 
Base and around this country.
    One of the things that we did with T.I. Was actually sent 
him to a number of bases. As you know, for people in the 
military, we have families, we have obligations. And so, 
sometimes the election--the process sometimes just kind of 
comes in our day-to-day lives, and so you need to be reminded 
about it the same way wherever you are, if you are in Iraq or 
Afghanistan or----
    Mr. Lungren. Good. I am glad you do that.
    And, Ms. Quinn, you were talking about the fact that there 
were some statistics that showed that we don't do a very good 
job there.
    Ms. Quinn. Yes.
    Mr. Lungren. Or it hasn't been a very good job done. Do you 
see that as a priority? Is that something we need to do now 
rather than later?
    Ms. Quinn. Yes, sir, I really do.
    I am the daughter of a former naval officer. We lived 
overseas. I know how hard it is. I worked at Peace Corps, and 
we had thousands of volunteers in very remote communities. It 
is incredibly challenging.
    And particularly for those that are serving our country and 
putting their lives on the line, we need to be doing everything 
we can to make sure they have the right to vote.
    Mr. Lungren. See, one of the saddest things, as far as I am 
concerned, is a number of contested elections, Minnesota and 
some others. A controversy was, should we count the military 
ballots, and when did they come in, and did they come in the 
right way? I mean, there ought not to be any question 
whatsoever that we have a process that counts those and counts 
those well.
    Mr. Joyner, at 5 o'clock on Election Day I received a call 
at my home. I was on the ballot. And the call went like this: 
``This is a news alert. News alert. According to the figures 
that are in from the East Coast and the Midwest, Barack Obama 
is going to win this election overwhelmingly. The John McCain 
campaign has said there is no way that they can win. It looks 
as though that the Democrats are not only going to continue 
with their leadership in the House and Senate, but are going to 
expand their numbers. And it appears that nothing that happens 
in California, Washington, Arizona, Nevada will change the 
outcome. This has been a news alert.''
    How would you describe that phone call?
    Mr. Joyner. Propaganda?
    Mr. Lungren. Would it sound like a suppression call?
    Mr. Joyner. Yes. Suppression. Who was the author of the 
call?
    Mr. Lungren. Well, actually, it happened to be connected 
with some parts of the Democratic Party and some major labor 
unions.
    The problem is, you can't go after the fact at them because 
they didn't say ``don't vote.'' Understand? So if you tried to 
prosecute it later on, to say that they were violating civil 
rights, you couldn't do it successfully because they didn't say 
``don't vote.''
    What they said was accurate, and was partly opinion. But 
there is no doubt what they intended to do. And, by the way, 
the only recipients of those were Republican voters.
    What I am pointing out is that this opportunity--by the 
way, I had a close election, too--this precious gift we have 
and obligation we have to vote crosses all party lines, crosses 
all races, genders. And we ought to all work together on this.
    But I would say this in response to the implicit suggestion 
that somehow requiring some form of identification is 
necessarily an attempt to suppress the vote or is the last 
vestiges of Jim Crow legislation. If someone votes in an 
election who does not have a right to vote, aren't they 
essentially canceling my vote out?
    Mr. Joyner. Well, if you had paper ballots, there is a way 
to audit that.
    Mr. Lungren. Well, a paper ballot has nothing to do with 
the identification of the person who is there to vote.
    Mr. Joyner. Well, sure it does. If someone votes who is not 
eligible to vote, then if you have an audit that should come 
up, shouldn't it?
    Mr. Lungren. But how do you prove whether one is the person 
who is eligible to vote if that person doesn't show some 
identification?
    Mr. Joyner. I am not saying don't show identification, but 
the requirement to show certain forms of identification doesn't 
cross all lines. If you are unemployed, if you are a citizen 
and you don't have a driver's license, then you should be able 
to vote, because you are a citizen and you are registered to 
vote.
    Mr. Lungren. Well, in California, I don't know about other 
States, but in California you can go to the DMV and get a--it 
is not a driver's license, but an identification, basically, to 
be able to use.
    So your objection is the type of identification, not that 
we shouldn't have some identification?
    Mr. Joyner. Yes. We should have some identification. But it 
should be across the board.
    Mr. Lungren.  Okay.
    Reverend Yearwood, I don't want to misstate what you said, 
but it sounded to me as though you said requiring 
identification, in and of itself, is improper, in your view, 
and would be viewed as trying to suppress the vote. And I 
thought you said it was a vestige of Jim Crow legislation.
    Reverend Yearwood. Yes. And I do believe that there are 
opportunities--and you are right. To me, it is actually a 
little different. Jim Crow, to me, in the 21st century is a 
little different. It isn't, to me, Jim Crow. I think my 
generation, with certain photo IDs, is not Jim Crow, but I like 
to say maybe it is the children of Jim Crow: James Crow, Jr., 
Esq. So it is a little more sophisticated.
    Mr. Lungren. Well, my question is, would you object to any 
type of identification? And if you don't, what type of 
identification could we rely on?
    Reverend Yearwood. Well, I would say this. I would object 
to, obviously, photo identification from the standpoint that 
what it does is obviously it disenfranchises communities.
    Mr. Lungren. How do you say that?
    Reverend Yearwood. I am sorry. Say it again?
    Mr. Lungren. How is requiring----
    Mr. Davis of Alabama. Mr. Chairman, can we have regular 
order so Mrs. Davis and I can get in and go cast our votes?
    Mr. Lungren. Okay.
    The Chairman. If you could sum up.
    Mr. Lungren. Could I ask unanimous consent to enter four 
items into the record: a University of Missouri article on 
public attitudes towards State elections; an account of 
possible vote fraud in New Mexico; an article of vote fraud 
convictions in Ohio; and an article discussing voter ID laws in 
Georgia?
    The Chairman. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lungren. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you for being here.
    The Chairman. Excuse me. The reason, we do have a vote 
coming on, and we would hate to make you come back. So maybe we 
could get through and go vote.
    Mrs. Davis of California. Okay. I will try and be very 
quick.
    You have all addressed student voting. And I know that 
student voters often have difficulty meeting registration 
deadlines. Arrived in school, whatever, and they don't really 
know the different laws of all the different States that they 
are either coming from or that they are in. And I would like to 
discuss that for a second in a minute.
    But what do you think we should be doing that we could do, 
that schools should be doing, to assist students so that they 
get the right information in the schools? Have you seen some 
good models? And what is your experience on the radio, as well?
    Mr. Joyner. Well, like I said earlier, one thing that we 
can do is get some younger people to--some younger eyes. You 
know, invariably, a lot of the problems that we have on 
Election Day is, God bless them, the older citizens that are 
there to help you get through the process. And----
    Mrs. Davis of California. Uh-huh. I am wondering about 
registration, particularly, though, to encourage voter 
registration.
    Yes?
    Reverend Yearwood. Yes, I mean, obviously, I would think 
that right now there is legislation being put forth. There is 
H.R. 1729, which is the ``Student Voter Act,'' which would 
require all colleges and universities that receive Federal 
funds to offer voter registration to students during the 
enrollment for a course of study. I think that would obviously 
boost during that timeframe.
    Mrs. Davis of California. Okay.
    Ms. Wales. Rock the Vote has been doing it for years. And 
Rock the Vote has not only by State on their Web site, but will 
also help students with not just on their State, but will help 
the schools. They have been doing it for cycles.
    Ms. Quinn. Ma'am, I would tell you that I think there is 
already a requirement on the schools to provide a voter 
registration application to all students. Because I know there 
was discussion, even when I was in Virginia, about providing it 
by e-mail versus providing it by paper.
    Ms. Wales. It is not currently a school requirement, but 
most schools will help. But Rock the Vote works with almost 
every single university nationwide.
    Mrs. Davis of California. Okay. And, just quickly following 
up again, because you have talked a little bit about some 
standardization. And we know that, throughout the country, we 
have about 26 States that allow people to vote by mail without 
excuses, and yet we have other States that require a notary.
    And I am just wondering, looking at that issue and perhaps 
others, where do you think there should be some 
standardization? Clearly, not to preempt creativity in States, 
but where should there be--should people have an equal chance 
to vote throughout the country, when it comes to their ability 
to access voting, if they are choosing to do it in, you know, 
other than just going to the polls?
    Ms. Westfall. I think that is an excellent question. 
Certainly, having a no-excuse absentee, mail-in ballot 
opportunity is something that should be provided to all voters.
    We also strongly encourage the establishment of early 
voting. We are working on that right now in Pennsylvania and 
Missouri. And, of course, it has been used so successfully in 
many other States, like Florida, Nevada, Colorado, and North 
Carolina.
    Mrs. Davis of California. Okay. Thank you. I appreciate 
that.
    Mr. Davis, go ahead.
    The Chairman. Mr. Davis.
    Mr. Davis of Alabama. Thank you, Mr. Chairman. I will try 
to slip in a number of observations in my 5 minutes.
    First one, one of the things that is interesting to me is 
we still have some forms of disenfranchisement that do go on, 
and they ought to be obvious to everyone in the room.
    I will give you one example. In one county in Virginia last 
September, September 2008, the head of the Board of Registrars 
in that county sent out a notice to college students that, if 
they voted in the State of Virginia, that it could result in 
their parents losing the right to claim them as a deduction on 
their tax returns if they were from out of State. That is a 
flatly inaccurate misrepresentation/lie about the state of the 
law. And one would think someone who is running an election 
board would have known better.
    When that kind of thing happens, there is usually a flurry 
of news stories about it. It is never prosecuted. It is often 
never investigated. And if it goes on in that community, I 
wonder how many other communities it goes on in.
    And I suspect that that may get at Mrs. Davis's question. 
One of the reasons, I suspect, that voter participation among 
young people stays so low may be because of confusion over 
where they can vote and their status.
    One thing that jumps out at me, in 2008, 18- to 24-year-
olds--and let's really narrow in--African American 18- to 24-
year-olds did have a big increase. The biggest age jump in the 
country, I think, happened in that cohort. But it still peaked 
out at 55 percent.
    Now, mind you, this is not 18- to 24-year-olds, period; 
this is 18- to 24-year-olds who have registered to vote. Okay. 
Or at least who were eligible to vote, I should say.
    Now, if 18- to 24-year-olds who were eligible to vote, who 
are African American, did not turn out for Barack Obama, then 
God save someone running for water commissioner or city council 
or the United States Congress.
    This seems to be something that we have to get at. How do 
we get past this hurdle of African Americans not voting and not 
participating? Even when they had every reason in the world to 
be energized, even when they had a massive registration 
campaign, the number still peaked out at 55.
    Why, Mr. Joyner and Mr. Yearwood, do you think the number 
peaked out at 55 given the history at stake in the election?
    Mr. Joyner. I don't think there is anything wrong with 55. 
But, you know, again, if you want more voter participation, you 
have to inform and you have to make the system easier.
    Reverend Yearwood. I think that your point is correct, we 
should be alarmed by that. But I think one of the things there 
that we have to make sure that--and this goes to Congresswoman 
Davis's point--that we have to make sure that we have voter 
registration, but we must continue the process after Election 
Day. We must get back to teaching civic engagement, teaching 
the process.
    A lot of young people who we came across, you are right, 
when they were very excited about the President, for instance, 
they were in a position where they didn't know the difference 
between, sometimes, the city council person and a Member of 
Congress to the mayor. They didn't quite know what they did.
    Mr. Davis of Alabama. They just know who they see on TV.
    Reverend Yearwood. Exactly. So when we began to inform them 
of the process, get them more engaged, then they are hanging 
around now.
    Now, I will say this, though. Since this historic election 
that we did have, I now go into barbershops, and I see you on 
CNN, I see you on C-SPAN, definitely I see this process being 
much more--they now know Mr. Brady from Compton to New York to 
wherever. They see this process. They are getting more engaged. 
We must catch this moment now. This moment is now; we must use 
it.
    Mr. Davis of Alabama. Ms. Wales, you were trying to jump 
in.
    Ms. Wales. Thank you.
    Barack Obama had more money than any candidate in history. 
He was able--the campaign was able to saturate every single 
media market more than any campaign in history, be it TV, 
radio, print, and social media, because of the amount of money 
that he had.
    If this generation didn't know who this candidate was, 
there will never be a candidate in history that will know a 
candidate. If it is tapped out at 55 percent, then they weren't 
behind the issues enough.
    I mean, if you look at things like the Tea Parties, for 
instance--and we need to engage around issues more. They need 
to believe in an issue more.
    Mr. Davis of Alabama. Well, let me just end on this 
observation, since my time is nearly up.
    The Chairman. Excuse me. If you could sum up, we have 4 
minutes left on a vote.
    And I would ask unanimous consent the record stay open for 
5 legislative days to allow further questions.
    Mr. Davis of Alabama. Yeah. This is the last observation I 
would make, Ms. Wales. Information is also an important part of 
this equation. And my only pet peeve with the Tea Parties--I am 
happy to see people left or right get energized, but I remember 
turning on my television and watching two people at two Tea 
Parties around the country on April 15th who were lamenting 
their taxes and who were blaming Barack Obama and the Congress 
for their taxes.
    Maybe I missed something, but I thought the taxes you paid 
in April were based on the tax year that ended December 31st. 
So if you didn't like your taxes, those Tea Parties, to me, 
should have happened probably last April 15th, when George Bush 
was in the White House.
    So there is just one minor little factual point there.
    The Chairman. We all agree with that.
    Again, thank you all for coming here. We do appreciate your 
time and your effort. And, most importantly, we appreciate your 
interest. Thank you for being here today.
    This hearing is now adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
